;

t
r

*

t

'

H

y

■ ______fWffiviYLY
•

of- roomm______

^vViiVilV.1 ■ 0,ri<\ph SAcAffi, $)lSAnd-(bart rf fas¥rr\ SreW^- rP
\ iJWfpiiO' nfrer femnVir^ 'Responforfe P\>%jn ip Pis frits S
\\: tvVmx'S ftoVrtVjn A Pm-r muK foetus 'i , , > » * 0Q pqyJv
VylV\^V^>; OKAeh .SyAes Dk^icV-CbuPy pi"1
D&KmcV d~
ypi^coa^ r'nuPV of^pp ~th \\mwk foffifynprS cW opri
ppCtsiar\
Efrdfoo
Cd rVmcaY^i-~
£»

^yWby^. V)nr\pr) Shaks CduP VPtopaJis,
nrvfr n \b1 Dm | a[ Ortrtia*k . cF Py^a\cffi\Yfe >

Oocxi'
K

A

H* rneroDOAP^ inry RrltF y Su acriMr^P' Op~tpiOT PS i t^f\~
yt\M . TZS&i

QM

Fy^xtoC;
1 xiiSGsns<Vx,pl.aiYrhfr1'-frx^fnVM■ ^homa^ i,
lOimim ,ViP.fervy^A- - f\m>\Vm\, dCCfl lA^3^MiKf1 Aftyp*Ofa^)
■■■-

-:"'V;'/'.

...........■-......-Xj%^)

£
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
".i

SHOMAS T. WINSTON,
Petitioner,
Case No. 18-cv-1938-pp
v.
RANDALL R.'HEPP,
Respondent.

■

*

ORDER GRANTING RESPONDENT’S MOTION TO DISMISS (DKT. NO. 18),
DENYING PETITIONER’S MOTION TO TAKE JUDICIAL NOTICE (DKT. NO.
25), DISMISSING CASE AS UNTIMELY UNDER 28 U.S.C. §2244(d)(l)(A) AND
DECLINING TO ISSUE CERTIFICATE OF APPEALABILITY
On December 7, 2018, the petitioner, who represents himself, filed a
petition for writ of habeas corpus under 28 U.S.C. §2254 challenging his 2004
conviction in Milwaukee County Circuit Court for first-degree intentional
homicide and armed robbery. Dkt. No. 1 at 1. After the court had screened the
petition, the respondent filed a motion to dismiss, arguing that the petition was
not timely filed. Dkt. No. 18. The petitioner argues that he has newly
discovered evidence showing his actual innocence, which he asserts allows the
court to consider the merits of his claims. Dkt. No. 21. Because the habeas
petition was not timely filed and because the petitioner he has not met the
demanding standard for a gateway claim of actual innocence, the court will
dismiss the petition.

1
Case 2:18-cv~01938-PP Filed 03/30/20 Page 1 of 20 Document 28

I.

Background
A.

State Case

This court recounted the,petitioner’s history of state court filings in its
September 25, 2019 order denying his motions for an evidentiary hearing1, for
discovery, to appoint counsel and for release pending relief. Dkt. No. 24. As
stated in that order,
[o]n July 23, 2004, a jury found the petitioner guilty of first-degree
intentional homicide and armed robbery.. State ~v v/’' Winston.
Milwaukee County Circuit Court' Case No. 03CF00686 (available at:
https://wcca.wicourts.gov). The Milwaukee County Circuit''Court
judge sentenced the petitioner to life in prison on September 7,
2004. Id. The clerk entered judgment the next day. IcL
With the assistance of appointed counsel, petitioner , raised
ineffective assistance of counsel claims, challenged the sufficiency
of the [evidence] and objected to the sentence in a postconviction
motion and a direct appeal. State v. Winston. Wisconsin Court of.
Appeals, Case No. 2005AP000923 (available electronically at:
https: / / wscca.wicourts.gov).
The
circuit
court
denied
postconviction relief. Iffi On June 27, 2006, the Wisconsin Court of
Appeals affirmed the judgment and order denying relief. Iffi The
petitioner did not file a petition for review with the Wisconsin
Supreme Court. Dkt. No. 1 at 2-3.
In February of 2008, the petitioner filed a petition for writ of habeas
corpus in the Wisconsin Court of Appeals. Dkt. No. 1 at 3. The court
denied the petition ex parte on March 5, 2008. Id. The Wisconsin
Supreme Court denied review on August 18, 2008. State v. Winston.
Wisconsin Court of Appeals, Case No. 2008AP000332 (available
electronically at https://wscca.wicourts.gov).
On January 27, 2009, the petitioner filed a motion for new trial
under Wis. Stat. §974.06, challenging the effectiveness of his post­
conviction counsel. Dkt. No. 2-1 at 7. The trial court denied the
motion on March 23, 2009, and the Wisconsin Court of Appeals later
affirmed that order. kL at 12, 13. The Wisconsin Supreme Court
denied review on September 27, 2011. State v. Winston. Wisconsin
Court of Appeals, Case No. 2009AP000887 (available electronically
at https://wscca.wicourts.gov). •
2
Case 2:18-cv-01938-PP Filed 03/30/20 Page 2 of 20 Document 28

The petitioner filed a second motion for new trial on September 7,
2012. Dkt. No. 1 at 4. After the circuit court denied his motion, he
appealed but later moved to voluntarily dismiss the appeal on
December 20, 2013. State v. Winston. Milwaukee County Circuit
Court, Case No. 03CF006686 (available electronically at
https://wcca.wicourts.gov). The state court docket shows that the
petitioner voluntarily dismissed "his ‘ appeal so the Wisconsin
Innocence Project could file a DNA motion. Id, (1-31-2014 docket
entry). The state coiirt record reflects that the defendant and the
government entered a stipulation for DNA testing at the defendant s
expense on March 24, 2014. Id,
Oh November 23, 2016, the petitioner filed a third motion for new
trial bkt. No. 2-1?at 1.'The trial court denied the motion on
November 30, 2016, and the Wisconsin'Court of Appeals summarily
affirmed the decision on May 31, 2018. Id, at 2-3'. The petitioner’s
motion argued that his discovery of an bid police report of an armed
robbery and murder committed by someone named “Wallstreet”
outside a check cashing store two years prior to the petitioner’s
offense date constituted newly discovered evidence warfanting a new'
trial. The Wisconsiri Court of Appeals rejected the motion as
meritless and as procedurally barred. Dkt. No. 2-1 at 4-5. The
Wisconsin Supreme. Court denied his; petition for review on
November 13, 2018.
\•
The petitioner filed this petition on December 7, 2018, alleging
actual innocence, denial of hiS constitutional right to a fair and
impartial jury, and denial of his constitutional right to effective
assistance of counsel. Dkt. No. 1 at 5-9.
■

Dkt. No. 24 at 2-4.
B.

■ i;

Federal habeas petition

The federal habeas petition raises three grounds for relief. First, the
petitioner argues that he is actually innocent of the crimes of conviction, “in
light of newly discovered evidence.” Dkt. No. 1 at 5. He alleges that a person
named “Wallstreet” actually committed the crime and that “[ejight years later
his identity was discovered through the Wisconsin Innocence Project revealing
a criminal history.” IcL The second ground for relief asserts that the state court
3

Case 2:18-cv-G1938-PP Filed 03/30/20 Page 3 of 20 Document 28

denied him a fair and impartial jury, kL at 6. He explains that one juror, Jerry
Gray, was the petitioner’s former high school teacher but remained silent when
the venire was asked if anyone knew the petitioner. IcL Relatedly, the third
ground charges that the petitioner’s trial counsel provided ineffective
assistance when he did not question Gray about the relationship, even though
the petitioner informed counsel that Gray was his former teacher Id at 8
'•

■■

c.

:

■■

• ■

■

'

.•

.V'-.-. '■

nr1-.-

:

Respondent’s Motion to Dismiss (Dkt. No. 181

The respondent argues that the court must dismiss the petition because
the petitioner filed it more than four years top late. Dkt. No. 19 at 5. The
respondent contends that the statute of limitations period began on the date on
which the petitioner’s conviction became final, which was thirty days after the
June 27, 2006 Wisconsin Court of Appeals decision—July 27, 2006. IcL
at 6.
He argues that the one-year time period expired oil July 27, 2007 and that the
petitioner did not file this federal habeas petition until December 7, 2018—
almost eleven and a half years later, kb at 7. The respondent recognizes that
the petitioner s state court filings would qualify for the statutory tolling
provision of §2244(d) (2), but calculates that even tolling the time during which
all the state filings were pending, the petitioner filed the petition over four years
and seven months after the one-year period elapsed. IcL at 8. The respondent
asks the court not to equitably toll the limitations period, arguing that the
petitioner has not identified extraordinary circumstances and has not
explained the lengthy gaps between filings. IcL at 10.

4
Case 2:18-cv-01938-PP Filed 03/30/20 Page 4 of 20 Document 28

I

The respondent also contends that the court should not allow the
petitioner’s claim for actual innocence to serve as a “gateway” to excuse his
untimeliness. Id. at 11. The respondent asserts that the petitioner’s actual
innocence claim is “baseless” because “he offers no reliable new evidence to
prove his innocence.” Id: at 12. The respondent says that the petitioner’s
;

.

‘ .

"...

evidence about Wallstreet is not “new; to a [i]t was considered and rejected by the
a

Wisconsin Court of Appeals dn direct review in 2006 in the context of [the
petitioner’s] challenge to the sufficiency of the evidence to convict him.” IcL at
13. He further argues that the “new” evidence is not probative of the
petitioner’s innocence because as the Wisconsin Court of Appeals explained,
‘Multiple'eyewitnesses testified that Winston committed the crime.
The fact that a person named Wallstreet may have also committed
an armed robbery outside a check-cashing store two years before
Winston committed this crime has no bearing on Winston’s
culpability here.’
Id. at 13-14 (quoting, dkt. no. 19-6 at 3).
Alternatively, the respondent maintains that the petitioner procedurally
defaulted grounds two and three because he failed to raise those claims in the
Wisconsin Supreme Court. Id. at 15. The respondent observes that the
petitioner did not petition for review in the Wisconsin Supreme Court after the
Wisconsin Court of Appeals denied his challenge to the seating of juror Gray
and his counsel’s failure to question Gray. Id. at 17.
The petitioner does not contest the respondent’s calculations regarding
the limitations period or the respondent’s assertion that the petition is
untimely. Dkt. No. 21. Instead, the petitioner argues that the proof of his
5
Case 2:18-cv-01938-PP Filed 03/30/20 Page 5 of 20 Document 28

I

actual innocence allows the court to excuse both the petition’s untimeliness
and any procedural default. Id at 2. He explains that in 2012, he discovered
evidence regarding “Wallstreet’s” actual identity and past criminal history. Id
at 3. This evidence is “new”, he says, because he did not discover it until eight
years after his trial and six years after his direct appeal. Id. at 3 (citing dkt. no.
2-1 at 30).
. ■"

■

■:

,

:

. y

• ■:>rO

"■

.

v

The petitioner argues that this discpvery is “very important” because the
petitioner had argued at his trial that someone else committed the crime. Id.
The petitioner criticizes the respondent’s assertion that “multiple eyewitnesses”
testified against him; he says that, at trial, one of his co-defendants (James
Green) actually testified that “Wallstreet” committed the crime. Id. at 4. The
petitioner says that a different co-defendant, Jerry Lee, testified that he was
afraid of “Wallstreet” because “Wallstreet” would harm his family if he gave
Wallstreet up to authorities. Id The petitioner asserts that Jerry Lee testified
that the petitioner committed this crime in exchange for a favorable plea deal.
IcL The petitioner observes that at the time of the trial, he did not know
“Wallstreet’s” identity or his past criminal history. IcL The new evidence, he
says, shows that “Wallstreet” had an armed robbery and gun possession charge
and ties to a gang known for armed robberies. Id, at 4-5.
The petitioner also attacks the remaining evidence the state presented at
his trial. The petitioner argues that the other eyewitness at the scene, Ruby
Adams, testified that she saw “a black male with a dark skin complexion
robbing the victim.” Id at 5 (citing dkt. no. 2-1 at 57-58). The petitioner states
6

Case 2:18-cv-01938-PP Filed 03/30/20 Page 6 of 20 Document 28

(

that he does not have a dark skin complexion, but that “Wallstreet” was
described in a police report as being a black male with a dark skin complexion.
Id. (citing dkt. no. 2-1 at 31-32). Moreover, the petitioner says that the jury
never lieard Ruby Adams’s testimony about the photo array she viewed on
November 17, 2003, where she could not identify the petitioner despite his
inclusion in the array. Ich at 6-7 (citing dkt. no. 2-1 at 59). The petitioner
,n

"

...

s

...

observes that at trial, the state called James Green’s sister, who testified that
Green told her of the petitioner’s involvement in the crime, using the
petitioner’s nickname, “Web.” Id. at 6. The petitioner notes that two additional
people overheard this conversation—Andre Harris and Jerome Whitehead—
both of whom claimed that James Green discussed the crime but did not
mention the nickname, “Web.” JdL Finally, the petitioner says that the jury
never heard that tie denied involvement in the crime for almost eighty minutes
“while being tired” before confessing to the lead detective, or of the
interrogating detective’s “very different versions of [the petitioner’s]
interrogation surrounding tiis alleged statement.” Ich at 7.
The petitioner says that “the Schlup v. Delo, 513 US 298 (1995) actual
innocence gateway does not require that the evidence be newly discovered.” Id.
at 8. He says he needs only to show that the evidence is reliable and that it was
not presented at trial. Id. (citing Gomez v. Jaimet, 350 F.3d 673, 679 (7th Cir.
2003); Gladnev v. Pollard, 799 F.3d 889, 898-899 (7th Cir. 2015)). The
petitioner says that evidence about Wallstreet’s identity and past criminal
history, along with other evidence never presented to the jury, establishes a
7
Case 2:18-cv-01938-PP Filed 03/30/20 Page 7 of 20 Document 28

»

probability that no reasonable jury would have found the petitioner guilty
beyond a reasonable doubt. Id. at 9. The petitioner,asserts that the respondent
does not want the court to consider his claims on their merits, because they
would earn him.relief. Id. at 12.
II.

Analysis
A.

Statute of Limitations under AEDPA

The Antiterrorism and Effective Death Penalty Act, of 1996 (“AEDPA”) sets
a one-year limitations period for petitioners seeking federal habeas relief. .28
U.S.C. §2244(d)(l) . The one-year period begins to run from the latest of the
following four events:
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking
such review;
'
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or law , of the
United States is removed, if the applicant was prevented from filing
by such State action;
(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been
recognized by the Supreme Court and made retroactively applicable
to cases on collateral review; or
(D) the date on which the factual predicate of the claim or
claims presented could have been discovered through the exercise
of due diligence.
28 U.S.C. §2244(d)(l)(A)-(D). The petitioner does not say which of these four
provisions is the one that governs when his limitations clock began. He has not
claimed that some state action prevented him from timely filing his habeas
petition or that he is asserting a right newly recognized by the Supreme Court.
8
Case 2;18-cv-01938-PP Filed 03/30/20 Page 8 of 20 Document 28

I

He does claim that he has newly discovered evidence—“Wallstreet’s” true
identity. But he does not argue that the limitations period began to run on the
.....

- .

,

.

-

date that he could have learned of this information through the exercise of due
diligence. Even if the petitioner had made that argument, it would not be
successful. The petitioner says that he found out “Wallstreet’s” true identity in
2012, but he did not file his petition'until 2018—six years later.

-

Further, the evidence of Wallstreet’s1 true identity relates only to the
petitioner’s first ground for relief—“actual innocence”—which is not a
constitutional cldim. As the Seventh Circuit recently hhs explained,
[t]he Supreme Court has flagged the possibility that actual'
innocence might be enough to justify collateral relief in a capital case
on the theory that the execution of one who is actually innocent
violates the Eighth Amendment. (Herrera v. Collins. 506 U.S. 390,]
at 405, 113 S.Ct. 853. Apart from that potential exception, however,
the Court’s “habeas jurisprudence makes clear that a claim of ‘actual
innocence’ is not itself a constitutional claim, but instead a gateway
through which a habeas petitioner must pass to have his otherwise,
barred constitutional claim considered on the merits.
Perrone v. United States. 889 F.3d 898, 903 (7th Cir. 2018) (quoting Herrera.
506 U.S. at 404); see also Lund v. United States.’913 F.3d 665, 668 (7th Cir.
2019) (re-affirming actual innocence as “only a gateway” and that “{framing the
exception as a gateway presupposes that a petitioner will have underlying
claims separate from the claim that he is actually innocent.”). Because the
petitioner’s claim for actual innocence is hot a free-standing claim for relief, his
delayed discovery of Wallstreet’s identity would hot trigger a later start of the
limitations period under §2244(d)(l)(D). To avail himself of that later start date,
the petitioner would need to show that he had newly discovered evidence of the
9
Case 2:18-cv-01938-PP Filed 03/30/20 Page 9 of 20 Document 28

\

factual predicate for grounds two and three, of his petition—those concerning
juror Gray. But as to those claims, the petitioner has. alleged that he knew
juror Gray was his former teacher at the time of his .trial and informed his .
counsel of as much during the trial. See Dkt., No. 1 at 8. The petitioner cannot
claim that he recently discovered the factual predicate for grounds two and
three, which means he, cannot avail .himsqlf of the later start date for the
limitations period provided for by. 28 ,U..S.Q.! §22f-4(d)tjl:)(D).

: -It. : •

That.leaves 28U.S.C. §2244(d)(l)(A), which provides that the one-year
period begins to ruri from the date the petitioner’s conviction bpcpme final by
the conclusionof direct review or the expiration..pf the time for .seeking such
review. The Wisconsin Court of Appeals denied, the petitioner’s.,direct appeal on
June 27, 2006. Dkt. No. 19-2. The petitioner did not file a petition for review
with the Wisconsin Supreme Court; his time for doing so expired thirty days
after the Court of Appeals’ decision. See Wis. Stat. §808.10(1). His one-year
clock for filing a federal habeas petition began the day that time-expired.
Gonzalez v. Thaler. 565 U.Si 134, 150 (2012) (“with respect to a state prisoner
who does not sefek review in a State’s highest court, the judgment becomes
:

‘i

■

:

"

-

.

;

■

“final” under §2244(d)(1)(A) when the time for seeking such review expires[.]”).
The petitioner’s time for filing his federal habeas petition expired one year later,
on July 27, 2007. The petitioner did not file this habeas petition until
December of 2018—almost eleven and a half years after the clock ran out.
AEDPA’s one-year time limitation can be “tolled,” or paused, in certain
;

-

circumstances; under 28 U.S.C. §2244(d)(2), “[tjhe time during which a
10
Case 2:18-cv-01938-PP Filed 03/30/20 Page 10 of 20 Document 28

I

properly filed application for State post-conviction or other collateral review
with respect to the pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection.” The court has reviewed
the history’ of the petitioner’s state court filings. He didn’t make any of those
filings prior to July' 27, 2007—the date on which his one-year limitations
period expired, those motions did not toll the one-year limitations period
because the clock already had run. See Graham v. Borgen, 483 F.3d ‘475, 48283 (7th Gir. 2007) (post-conviction motion filed after one-year deadline “had no
tolling effect Whatsoever on the AEDPA statute of limitation.”). Even if the court
were to exclude ail the time during which the petitioner had a state court
action “pending” for purposes of statutory tolling, the petition would still be
roughly four-and-a-half years past due.1

V'

1 The clock ran for about eighteen months between July 27, 2006 and
February 13, 2008—when he filed for a writ of habeas corpus in state court.
Had the time not expired, the clock would have tolled until the Wisconsin
Supreme Court denied review on August 20, 2008. Had the time not expired,
five months would have run between August 20, 2008 and Januaiy 27, 2009,
when the petitioner filed a Wis. Stat. §974.06 motion. The clock would have
tolled until the Wisconsin Supreme Court denied review on September 24,
2011. Had the time not expired, eleven months would have run until the
petitioner filed a second motion for new trial on September 7, 2012. The clock
would have tolled from September 7, 2012 until the petitioner voluntarily
dismissed his .appeal in exchange for a stipulation on DNA testing on March
24, 2014. Had the time not expired, the clock would have run for about thirtyone months until the petitioner filed his third motion for new trial on November
23, 2016. The clock would have tolled until December 4, 2018 and the
petitioner filed his petition, three days later. Even if the limitations period had
not expired on July 27, 2007, there would have been some sixty-five months
(18 + 5 + 11 + 31), or approximately five-and-a-half years, during which no
state motions were pending, that would have expired prior to the date the
petitioner filed here in federal court. That’s four-and-a-half years more than the
statute allows.
11
Case 2:18-cv-01938-PP Filed 03/30/20 Page 11 of 20 Document 28

\

The petitioner’s only recourse is for the court to excuse his untimely
filing. It may do so in one of two ways: by invoking the doctrine of equitable
tolling, or by finding that the petitioner has demonstrated his actual innocence.
B.

Equitable Tolling

A court may invoke the doctrine of equitable tolling if the petitioner
shows “(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way and prevented timely filing.” .
Holland v. Florida, 560 U.S. 631, 649 (2010). “Equitable tolling is an
extraordinary remedy and so ‘is rarely granted.’” Obriecht v. Foster. 727 F. 3d
744, 748 (7th Cir. 2013) (quoting Simms v. Acevedo. 595 F.3d 774, 781 (7th
Cir. 2010)). “A petitioner bears the burden of establishing both , elements, of the
Holland test; failure to show either element will disqualify him from eligibility
for tolling.” Mayberry v. Pittman. 904 F.3d 525, 529-30 (7th Cir. 2018) (citing
Menominee Indian Tribe of Wisconsin v. United States. —U.S.—, 136 S- Ct.
750, 755-56 (2016)).“The realm of equitable tolling is a highly fact-dependent
area in which courts are expected to employ flexible, standards on a case-by­
case basis.” Socha v. Boughton. 763 F.3d 674, 683 (7th Cir. 2014) (internal
quotations omitted). The remedy is “rare” and “‘reserved for extraordinary
circumstances far beyond the litigant’s control that prevented timely filing.’” IdL
(quoting Nolan v. United States. 358 F.3d 480, 484 (7th Cir. 2004)). A district
court must “evaluate the circumstances holistically, considering The entire
hand that the petitioner was dealt’ rather than taking each fact in isolation.”

12
Case 2:18-cv-01938-PP Filed 03/30/20 Page 12 of 20 Document 28

t

Gray v. Zateckv, 865 F.3d 909, 912 (7th Cir. 2017) (quoting Socha, 763 F.3d at
686)).

The petitioner has not asked the court to apply the doctrine of equitable
tolling, and none of his pleadings describe any extraordinary circumstances
beyond his control that prevented him from timely filing the petition. The
petitioner’s numerous state court filings show that he knows how to file
pleadings irt court. While’ the many state court filings indicate that the
petitioner persistently litigated his case, he has not explained why there were '
significant gaps between his various efforts to attack the state conviction and
sentence. He has not explained why he waited eleven and a half years before
filing in federal court. The court will not apply the doctrine of equitable tolling.
C.

Actual Innocence

The petitioner argues that he has evidence that he is innocent, and that
this should excuse the untimely filing and any procedural default. “Actual
innocence is an equitable exception that renders the time limit set forth in
section 2244(d)(1) inapplicable.” Arnold v. Pittman, 901 F.3d 830, 836 (7th Cir.
2018) (citing McOUiggin v. Perkins. 569 U.S. 383, 386 (2013)). It “is merely a
gateway through which a Court Can consider a petitioner’s otherwise barred
claims on their merits.” Lund, 913 F.3d at 668 (citing Herrera, 506 U.S. at 40405). “[T]enable actual-innocence gateway pleas are rare.” McQuiggin, 569 U.S.
at 386.
A claim of actual innocence must be both credible and founded on
new evidence. Schlup, 513 U.S. at 324, 115 S. Ct. at 865. To be
credible, the claim must have the support of “reliable evidence—
whether it be exculpatory scientific evidence, trustworthy
13
Case 2:18-cv-01938-PP Filed 03/30/20 Page 13 of 20 Document 28

\

eyewitness accounts, or critical physical .evidence.”... Ibid. That
evidence must also be new in the sense that it was not before the
trier of fact. Ibid.; Gladney, 799.F.3d at 898. The petitioner’s burden
is to show that, in light of this new evidence it is more likely than
not that no reasonable juror would have found him guilty beyond a
reasonable doubt.
Id. at 836-37. The gateway is narrow; a petitioner must present “‘evidence of
innocence so strong that a court cannot have confidence in the outcome of the
trial unless the court is also satisfied that the trial was free of noribarmless
constitutional error.’” Gladney. 799 F.3d at 896 (quoting Schlup. 513 U.S. at
316.)
In support of his claim for actual innocence, the petitioner submitted (1)
a memorandum recounting a November 2012 interview with James Green, dkt.
no. 2-1 at 23-24; (2) a copy of a June 11, 2012 open records request made by
the Wisconsin Innocence Project seeking documents related to a 2001 felony
case for Damien U. Sanders, dkt. no. 2-1 at 27; (3) the Milwaukee Police
Department’s July 25, 2012 response to the open records request, icL at 28-29;
(4) a Milwaukee Police Department incident report from 2001 naming Damien
Sanders as a suspect in an armed robbery, icL at 30-38; (5) an August 31, 2012
affidavit from a “Geometry L. Milton” stating that while he was incarcerated at
Green Bay Correctional institution, James Green said police made him “lie on”
the petitioner, icL at 39; (6) a November 21, 2012 affidavit from a “Maurice D.
Stokes” stating that while in the Milwaukee County Jail, James Green told him
the police made him lie about the petitioner’s involvement in this crime, idL at
41; (7) a November 17, 2003 police report recounting an interview with Jerry
Lee’s sister, LaTosha Gray, ibL at 42-43; (8) a November 16, 2003 police report
14
Case 2:18-cv-Q1938-PP Filed 03/30/20 Page 14 of 20 Document 28

recounting a custodial interrogation of James Green, id. at 44-47; (9) a
November 15, ,2003 police report recotinting an interview with James Green’s
sister, Taquita Hodges, id at 49-52; (10) a November 15, 2003. police report
recounting an interview with Andrae. A. Harris, id. at 53; (11) a November 15,
• 'j

/

.

..

r

,

•

,

‘

• ‘ r

-:

j

~

‘

2003 police report recounting an interview with Jerome Whitehead, id at 5356; (12) a November 15, 2003 incident report recounting an interview with
eyewitness Ruby Adams, id. at 57T58; (13). a police report recounting that on
November 17, 2003, police showed Ruby Adams a photo array that contained
the petitioner’s photo, but that Adams could not identify anybody in the array,
■. re . 'a

rir

\

vx■ x... ;

..

xc >

id. at 59; (14) an affidavit from a Ms. Rose Marie Winston stating that she
attempted to retrieve school records for the petitioner and received criticism
from petitioner’s appellate counsel, id at 60-61; and (15) correspondence with
the Milwaukee Public Schools showing that the petitioner attempted to verify
■

..

.

.

'

• x -

that Mr. Jerry Gray taught the petitioner during the 2001-02 school year, id at
62-67.
None of this evidence is the sort of reliable evidence strong enough to
undermine the court’s confidence in the outcome of the trial. /The petitioner has
not submitted affidavits from Jerry Lee or James Green—the petitioner’s codefendants—officially recanting their trial testimony.\The petitioner instead
submits James Green’s interview with the Wisconsin Innocence Project, in
which he told law students that “Wallstreet”—not the petitioner—actually
committed the robbery. Dkt. No. 2-1 at 23. But these statements were made in
an informal interview; they do not carry the same weight and reliability as
15
Case 2:18-cv-01938-PP Filed 03/30/20 Page 15 of 20 Document 28

s
statements made under penalty of perjury. While the petitioner submits
affidavits from other prisoners claiming that James Green admitted to lying
about the petitioner, these are second-hand accounts similarly lacking in
indicia of reliability.
The petitioner’s “new” evidence about the identity of Wallstreet does not
bolster the petitioner’s argument that “Wallstreet” committed this crime. The
petitioner’s evidence of “Wallstreet’s” identity is the Wisconsin Innocence
Project memorandum from November of 2012. Dkt. No. 2-1 at 23. From the
memorandum, it appears that James Green identified Damien Sanders as
“Wallstreet.” IcL The April 2001 police report identified “Damien Sanders” as an
. i

.

■

.

identified suspect in an armed robbery, committed near the scene of the 2003
crime. Dkt. No. 2-1 at 30 (2001 robbery occurred at the 3700 block of Vliet St.
in Milwaukee; 2003 crime occurred at 3400 block of Vliet St. in Milwaukee).
The other police documents show that.Damien Sanders may have had an
affiliation with the Young Guns gang. Id. at 29.
^^Jjv"But this “evidence” discovered in 2012 does not exonerate the petitioner;
it does not place the petitioner somewhere else at the time of the crime; it does
not explain surveillance footage showing the petitioner at the scene. There is no
DNA evidence linking Damien Sanders to this crime. There is no eyewitness
testimony placing Damien Sanders.at the scene of this crime. There is no

V. admission from Sanders that he committed the crime.\The evidence does not .
explain why the petitioner confessed to the crime.iThe court concedes that if

CrGreen had testified differently at trial, and if the petitioner had known of
16
Case 2:18-cv-01938-PP Filed 03/30/20 Page 16 of 20 Document 28

—

I

Wallstreet’s identity, and if the defendant’s lawyer could have brought in
evidence of Wallstreet’s history (which is questionable, given the rules of
evidence), it may have given the jury something to think aboutjBut the
evidence the petitioner has presented is not the “smoking gun” evidence the
petitioner believes it to be. It is not the “exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidence” necessary to
pursue a gateway claim of actual innocence. Schlun. 513 U.S. at 324. The
evidence does not meet the demanding Standard of showing that no reasonable
juror would have found the petitioner guilty beyond a reasonable doubt.
The court will deny the petition as untimely.
III.

Motion to Take Judicial Notice (Dkt. No. 25)
On February 28, 2020, the petitioner filed a motion asking the court to

take “judicial notice pursuant to Fed. R. Evid. 201(a).” Dkt. No. 25. He asserted
that certain facts were “not subject to reasonable dispute because they can be
accurately and readily determined from sources whose accuracy cannot be
reasonably questioned.” IcL at 1. He asks the court to take “judicial notice” of
case law that describes the actual innocence standard, id;, at 1-2; that Green
and Green’s sister discussed the crime in the presence of two witnesses but
that the petitioner’s nickname never came up as the person responsible for the
homicide, id. at 2; that the two witnesses didn’t testify at trial and that the jury
never knew that the petitioner’s nickname hadn’t come up in the discussion
between Green and his sister, id.; that Ruby Harris told police she might be
able to identify the person who committed the crime if she could see him again,
17
Case 2:18-cv-01938-PP Filed 03/30/20 Page 17 of 20 Document 28

\

id.: that two days after the crime, Ruby Harris viewed a photo array containing
the petitioner but didn’t pick anyone out, id. at 2-3; that the jury wasn’t made
aware that Harris didn’t pick anyone from the array, id. at 3; that the petitioner
.

v.

•

•

•

* /

•

pointed out all this information in his habeas brief, icL; that at the beginning of
his trial, the members of the venire were asked if anyone knew the petitioner,
and no one raised a hand, id. at 3-4; that the Wisconsin Court of Appeals
,

N •

J

.

. ’

•

f

,

|

- '

.

'

.’ '

-•-

j-

*■-

- »

•

J

conceded that one, of the petitioner’s jurors was his former high school teacher,
id. at 4; that the.trial court never questioned Gray about his relationship with
the petitioner, id.; that the petitioner was; seventeen when he was arrested, id.;
that he was seventeen when he went to trial, 'id.; that another federal judge had
issued a decision regarding an undisclosed history between a juror and a
defendant, icL at 4-5; that the petitioner identified the issue with juror Gray in
his petition before the other judge issued his decision, icL at 5; and that the
Court of Appeals issued a decision contrary to well established federal law in
refusing tq give him an evidentiary hearing on the Gray issue, icL
“A court may take judicial notice of an adjudicative fact that is both dot
subject to reasonable dispute’ and either 1) ‘generally known within the
territorial jurisdiction of the trial court’ or 2) ‘capable of accurate and ready
determination by resort to sources whose accuracy cannot reasonably be
questioned.’” General Elec. Capital Corn, v. Lease Resolution Corn. 128 F.3d
1074, 1081 (7th Cir. 1997) (quoting Fed. R. Evid. 201(b)). “Judicial notice” is an
evidentiary shortcut. It allows a court to take note of facts about which no one
could disagree—the fact thai the Governor of Wisconsin is Tony Evers, the fact
18
Case 2:18-cv-01938-PP Filed 03/30/20 Page 18 of 20 Document 28

I

that Madison is the capital of Wisconsin, the fact that the sun rises in the east
and sets in the west—so that parties and courts don’t waste time trying to
prove things that are indisputable.
The petitioner asks the court to take judicial notice of certain judicial
decisions, ^he court agrees that those decisions exist, but that doesn’t mean
that the court interprets those decisions like the petitioner does, or that they
provide him with any relief. The petitioner also asks the court to "take judicial
notice of facts that are not icriowri within the general territorial jurisdiction of
this court, and that—contrary to the petitioner’s assertions—are not capable of
ready and accurate determination by resort to sources whose accuracy cannot
be questioned. The court cannot look in a dictionary or an almanac or an
encyclopedia to confirm the facts the petitioner has listed. The petitioner is
asking the court to take judicial notice of arguments and inferences. That is not
what judicial notice is for. And even if the court did take judicial notice of all
these facts, it would hot change the reality that the petitioner waited too long to
file for federal habeas relief.
The court will deny this motion.
IV.

Certificate of Appealability
Under Rule 11(a) of the Rules Governing Section 2254 Cases, the court

must consider whether to issue a certificate of appealability. A court may issue
a certificate of appealability only if the applicant makes a substantial showing
of the denial of a constitutional right. See 28 U.S.C. §2253(c)(2). The standard
for making a “substantial showing” is whether “reasonable jurists could debate
19
Case 2:18-cv-01938-PP Filed 03/30/20 Page 19 of 20 Document 28

i

whether (or for that matter' agree that) the petition should have been resolved
■i

*

in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel. 529 U.S. 472, 484
(2000) (internal quotations omitted). The court declines to issue a certificate of
appealability, because reasonable jurists could not debate that the petition was
untimely under 28 U.S.C. §2244 or that the petitioner has not presented,
evidence demonstrating his actual innocence.
IV.

Conclusion
; i

/

The court GRANTS the-respondent’s motion to dismiss. Dkt.< No. 18.
The court DENIES the petitioner’s motion to take judicial notice,. Dkt. No.
"yCi >

25.
\

2

The court ORDERS this case is DISMISSED as untimely under 28 U.S.C.
>C

§2244(d)(l)(A).
The court DECLINES TO ISSUE a certificate of appealability.
Dated in; Milwaukee, Wisconsin this 30th day of March, 2020.
BY THE COURT:
:■

r-.

HON. PAMELA PEPPER
Chief United States District Judge

20
Case 2:18-cv-01938-PP Filed 03/30/20 Page 20 of 20 Document 28
*•

i
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

'a

l

SHOMAS T. WINSTON,
Petitioner,

JUDGMENT IN A CIVIL CASE

V V.

Case No. 18-cv-1938-pp

RANDALL R; HEPP, .

i

Respondent.

□
Jury Verdict. This case came before the court for a trial by jury. The
parties have tried the issues, and the jury has rendered its verdict. , .
0
Decision by Court. This case came before the court, the court has
decided the issues, and the court has rendered a decision.
THE COURT ORDERS AND ADJUDGES that petitioner Shomas T.
Winston’s petition for a writ of habeas corpus under 28 U.S.C. §2254 is DISMISSED as untimely under 28 U.S.C. §2244(d)(l)(A).
THE COURT ORDERS that the respondent’s motion to dismiss is
GRANTED. Dkt. No. 25
THE COURT DECLINES TO ISSUE a; certificate of appealability.

- V.'

THE COURT ORDERS that this case is DISMISSED.
Approved and dated in Milwaukee, Wisconsin this 30th day of March,
2020.
’

BY THE COURT:

HON. PAMELA PEPPER
Chief United States District Judge
STEPHEN C. DRIES
Clerk of Court
s/ Caru Biskupic
(by) Deputy Clerk
I

*
%

Case 2:18-cv-01938-PP Filed 03/30/20 Page 1 of 1 Document 29

1

ilmtefr jitahs (Court of Appeals

Q

For the Seventh Circuit
Chicago, Illinois 60604
Submitted December 7,2020
Decided December 16, 2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
AMY J. ST. EVE, Circuit Judge

\

No. 20-1605
SHOMAS T. WINSTON,
Petitioner-Appellan t,

v.
GARY A. BOUGHTON,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of
Wisconsin.
No. 18-cv-1938-pp
Pamela Pepper,

Chief Judge.

ORDER
Shomas Winston has filed a notice of appeal from the dismissal of his 28 U.S.C.
§ 2254 petition, which we construe as a request for a certificate of appealability. We
have reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY a certificate of appealability. We also DENY Winston's
motion for appointed counsel.

Irttte State Court of appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 8,2021
Before
ILANA DIAMOND ROVNER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 20-1605
SHOMAS T. WINSTON,
Petitioner-Appellant,
v.
GARY A. BOUGHTON,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of
Wisconsin.
No. 18-cv-1938-pp
Pamela Pepper,

Chief Judge.

ORDER
On consideration of the appellant's petition for rehearing, the judges on the
Original panel have voted to deny rehearing. It is, therefore, ORDERED that the
petition for rehearing is DENIED.

A

v

Additional material
from this filing is
available in the
Clerk's Office.

